HHS/OIG, Audit - "Review of Pension Costs Claimed for Medicare
Reimbursement by CIGNA for Fiscal Years 1991 Through 2004," (A-07-06-00209)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review
of Pension Costs Claimed for Medicare Reimbursement by CIGNA for Fiscal Years
1991 Through 2004," (A-07-06-00209)
January 19, 2007
Complete Text of Report is available in PDF format (3.31 mb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
CIGNA administers Medicare Part B and Durable Medical Equipment operations under cost reimbursement contracts with the Centers for Medicare & Medicaid Services and claims reimbursement for its Medicare employees’ pension costs. Regulations and the Medicare contracts provide guidance for claiming pension costs.
Our objective was to determine the allowability of pension costs that CIGNA claimed for Medicare reimbursement for fiscal years (FY) 1991–2004. CIGNA claimed $3,103,925 of unallowable pension costs for FYs 1991–2004 because it did not claim pension costs in accordance with the Medicare contracts.
We recommended that CIGNA revise its Final Administrative Cost Proposals to reduce claimed pension costs by $3,103,925. We also recommended that CIGNA claim future pension costs in accordance with the Medicare contracts. CIGNA disagreed in part with our original recommendation to reduce claimed pension costs by $3,425,240 but agreed that its claimed pension costs should be reduced. CIGNA also agreed to claim future pension costs in accordance with the Medicare contracts. After reviewing CIGNA’s comments, we revised our calculations and the related recommendation to reduce claimed pension costs.